HHS/OIG-Audit-"Review of Pension Costs Claimed for Medicare Reimbursement by Independence Blue Cross,"(A-07-01-03003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Independence
Blue Cross," (A-07-01-03003)
February 26, 2002
Complete
Text of Report is available in PDF format (2.95 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of an Office of Inspector General (OIG),
Office of Audit Services (OAS) review titled "Review of Pension Costs
Claimed for Medicare Reimbursement by Independence Blue Cross."  The
purpose of our review was to determine the allowability of pension costs claimed
for Medicare reimbursement for Fiscal Years 1987 through 1997. During this
period, the allowable Medicare pension costs were $2,150,995.  However,
Independence Blue Cross (IBC) claimed pension costs of $1,051,012 for Medicare
reimbursement.  As a result, IBC did not claim $1,099,983 in allowable
pension costs.  This under claim of pension costs primarily occurred because
IBC neglected to include certain pension contribution amounts on their Final
Administrative Cost Proposals (FACPs).  We
recommended IBC revise its FACPs to reflect the remaining allowable pension
costs.  While IBC agreed that any costs not claimed per its identification
of the Medicare segment would be reimbursable, it did not agree with our identification
of the segment.